No.

10-1^3
In The

Supreme Court of the United States

ADAM PERRY MCNIECE,
Petitioner,
v.
TOWN OF YANKEETOWN FLORIDA, ET AL.,
Respondent(s).
On Petition for a Writ of Certiorari
To The United States Court of Appeals
for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
Adam Perry McNiece
5 Palm Drive
Yankeetown, Florida 34498
adam.mcniece@gmail.com / 860-460-9636

f

FILED
MAY 03 2021

QUESTION(S) PRESENTED
1. Can a violation of law or code be charged and
tried without any statutory reference of code
chapter and section indicated?
2. Will a trial be fair without proper notification
as a function of due process?
3. Can a citizen sue the federal government under
a First Amendment right to petition, for a
redress of grievances?
4. Would this Petition for Redress be an
expression of free speech, thereby not limited
to two pages for self advocates, while unlimited
for lawyers, as is the case in the local rules of
the Northern District Court of Florida, in the
interest of impartiality?
5. Would due process include appeals up to and
including the Supreme Court of these United
States?
6. Does the Federal District local rule abridge my
right to petition?
7. Can a Judge rule sua sponte in error, while
striking from the record the preponderance of
evidence to affect the appeal record?
8. Can the Florida Appeals Court decide it’s own
appeal simply by not writing an opinion?

l

9. Does Supreme Court rule 28.8 contradict 28
USC 1654 which allows for self representation
in all United States courts including oral
argument?
10. Does Supreme Court rule 28.8 deny free speech
and make this appeal available to only the
elite; thus gagging the common man’s voice?
11. Does the Town of Yankeetown’s ordinance YT
2-65c, Order Imposing Fine or Lien, violate the
Eight Amendment for excessive fines and
unusual punishment?
12. Can a punishing authority control the
permitting (redemption) authority without
allowing for all proper appeals.
13. Does all real and personal property, now and
future, that are attached for an unnamed
violation, constitute a Bill of Attainder on all
un-adjudicated property under article 1 section
9?
14. While I had a permit to repair the structure
and quit when told to stop work, would an
additional after the fact permit be considered
ex post facto, article 1 section 9?
15. Does the Florida Constitution prohibit
unrestricted municipal court formation (see
article 5, section 1 of the Florida Constitution)?

li

PARTIES TO THE PROCEEDINGS
(x) All parties do not appear in the caption of the
case on the cover page. A list of all parties to the
proceeding in the court whose judgement is the
subject of this petition is as follows:
(There are currently no parties. The intended parties
are below)
The Town of Yankeetown, Florida
The State of Florida
Levy County Florida

in

RELATED PROCEEDINGS
ADAM P. McNEICE vs. TOWN OF YANKEETOWN,
et al.
Case l:19-cv-00323-AW-GRJ
ADAM P. McNEICE vs. TOWN OF YANKEETOWN
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10716
March 2019 - Town of Yankeetown vs. McNiece
#CL-5900.
Special Master Hearing in the Town of Yankeetown.
Dan Oates, Special Master
April 2019 - Levy County Circuit Court, Bronson FL.
Case#38-2019-CA-000211
Judge Susan Miller-Jones
August 2019 - US District Court, District of
Connecticut 3:19-CV-1320-SRU
Honorable Stephan Underhill
October 2019 - First District Court of Appeals
Florida Case# 1D19-3115
Tallahassee, Florida

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED............

1

PARTIES TO THE PROCEEDINGS

m

RELATED PROCEEDINGS

IV

v

TABLE OF CONTENTS
TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED......................

1

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE
PETITION......................................

7

CONCLUSION

8

APPENDIX
App. 1 United States District Court, Northern
District of Florida Order, dated March 3, 2021

la

App. 2 United States Court of Appeals for the
Eleventh Circuit Opinion dated 06/16/2020 ....

5a

App. 3 United States Court of Appeals for the
Eleventh Circuit Petition for Hearing en banc
denied, dated 02/16/2021 ..................................

15a

v

TABLE OF AUTHORITIES CITED
Page

CASES
Goldberg v. Kelly, 397 U.S. 254 (1970) .........

8-9

Marbury v. Madison, 5 U.S. 137 (1803) ........

4

Murray v. Hoboken Land, 58 U.S. 272 (1855)

9

Snyder v. Massachusetts, 291 U.S. 97 (1934)

8

CONSTITUTIONAL PROVISIONS,
STATUTES AND RULES
U.S CONSTITUTION ART. I SEC. 9

iii, 10

U.S. CONSTITUTION 1ST AMENDMENT

1

U.S. CONSTITUTION 5TH AMENDMENT

1-2

U.S. CONSTITUTION 8TH AMENDMENT

2

U.S. CONSTITUTION 14TH AMENDMENT

2

ART. I SEC. 10,17,21 FLORIDA
CONSTITUTION.......................
ART. Ill SEC. 11(6) FLORIDA
CONSTITUTION....................
ART. V SEC. 1 FLORIDA CONSTITUTION

2,3,10,11
2,11
ii,2,6

ii,4

28 U.S.C. 1654

1

28 U.S.C. 1254(1)
vi

U.S. SUPREME COURT RULE 28.8

ii,3,4

OTHER AUTHORITIES
Alien and Sedition Acts 1798
Town of Yankeetown Ordinance YT-65(c)

Vll

4
ii,7

PETITION FOR A WRIT OF CERTIORARI
The Petitioner Adam P. McNiece respectfully
submits this petition for a writ of certiorari to review
the judgement of the U.S. Court of Appeals, for the
11th Circuit.
STATEMENT OF JURISDICTION
The 11th Circuit Court of Appeals entered its
order affirming the judgement of the District Court on
February 16, 2021, making the petition due on or
before May 17, 2021.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISION INVOLVED
1st Amendment of the U.S. Constitution
Congress shall make no law respecting
an establishment of religion, or
prohibiting the free exercise thereof; or
abridging the freedom of speech, or of
the press; or the right of the people
peaceably to assemble, and to petition
the Government for a redress of
grievances.
5th Amendment of the U.S. Constitution

1

No person shall... be deprived of life,
liberty,
or property, without due
process of law ...
8th Amendment of the U.S. Constitution
Excessive bail shall not be required,
nor excessive fines imposed, nor cruel
and unusual punishments inflicted.
14th Amendment of the U.S. Constitution
No State shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United
States; nor shall any State deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.
Florida Constitution
Article 5 Section 1 states, ‘no other courts
may be established by the state, any political
subdivision or any municipality’.
Article III Section 11(6) Prohibited
Special Law, Change of civil or criminal venue.
Article
Punishments

I

Section

17

Excessive

Excessive fines, cruel and unusual
punishment, attainder, forfeiture of
2

estate, indefinite imprisonment, and
unreasonable detention of witnesses
are forbidden.
Article I Section 10 Prohibited laws.
No bill of attainder, ex post facto law or
law impairing the obligation of
contracts shall be passed.
Article I Section 21 Access to Courts
The courts shall be open to every
person for redress of any injury, and
justice shall be administered without
sale, denial or delay.
STATEMENT OF THE CASE
Imagine a court so powerful it can overrule
itself and has done so over 300 times in the past 232
years. This plus its reversals and abrogations are the
legends of U.S. history, carefully preserved for our
posterity.
Our beloved constitution repeats only one
command twice, “due process”, which traditionally
includes proper notification, full discovery, and fair
trial, and every possible opportunity for appeal
exhausted. Yet this high court is unavailable to the
common man. SCOTUS Rule 28.8 does not allow for
self representation in oral argument, thereby
abridging free speech of every self advocate; thus
denying due process by rule of law.
3

This directly contradicts 28 U.S.C. 1654, which
states a citizen can represent themselves in all U.S.
courts.
In Marbury u. Madison 1803 Chief Justice
John Marshall set the precedent expectation of the
judicial branch, “it is emphatically the province and
duty of the judicial department to say what the law is,
... if two laws conflict with each other, the courts must
decide the operation of each ... this is the essence of
judicial duty.”
This rule, from the highest court which carries
the weight of law, is in direct opposition to the
legislative law of U.S. code. It can only be attributed
to Burger Court vanity at the expense of the common
man’s right of free speech, and sets a precedent of
adverse pro se bias for all lower courts.
The Alien and Sedition Acts of 1798 expired in
1801, but took the Supreme Court 150 years before it
was deemed unconstitutional; in favor of free speech.
This SCOTUS rule 28,8 has made this high court
available only to the elite for 43 years. Best to get
started on reversal now. It’s a safe bet no bar member
would argue against their empire of sand.
It’s akin to a preacher spoon fed by the choir
distanced from the congregation.
Voices in dissent both temper and efficate a
more perfect union. Thomas Jefferson echoed the
Chief Justice conclusions stating the common goal is
“To educate and inform the whole mass of the
people...for they are the only sure reliance for the
4

preservation of our liberty. Unpublished opinions as
written by this appeals court does a disservice to our
common goal of lessening the timeframe required to
double human knowledge through collective
learning.”
1. The most unique feature about this case, is
there are no defendants. The Magistrate from
the Northern District of Florida’s Federal
Court, who ruled in error, immediately claimed
this case had no federal subject matter
jurisdiction so proper service was never
warranted. This same Magistrate also struck
my Petition for Redress from the record for
failing to meet the local rule of a two page limit
(Form- NDFL Pro Se 1 Civil Complaint)
designed only for the pro se.
2. The preponderance of the evidence is contained
in my first amended complaint, and my initial
Petition for Redress of Grievances.
3. This Magistrate, with his local two page rule so
hobbled or gagged my claims so as to decide his
own appeal.
4. The scales of justice are imbalanced due to this
local two page rule which affects only one
party. Similarly, self advocates, or the common
man is also restricted from electronic filing in
this jurisdiction only. Equal access to courts is
a factor in due process.
5. Should access to the courts and due process at
the federal level be dependent upon what state
your filing occurs, due to biased rules? Or does
uniform access and application institute
fairness?
5

6. I claim my First Amendment right to Petition
for Redress has been abridged in the Northern
District of Florida Court. In the federal court
system, uniform access and constitutional
interpretation is for the benefit of every
American citizen.
7. Without defendants this case has devolved into
a Lowly Pro Se vs. The Juggernaut of the
Federal Court of Northern Florida. A true
David and Goliath scenario with due process
and justice as the prize.
8. The usual court case is an adversarial contest
between parties before an impartial referee. In
this case the referee is the adversary and the
movant sua sponte, only to strike and dismiss
based on a local rule and an adverse pro se bias
at the expense of every citizens right of free
speech through a petition for redress of
grievance. I claim a violation of the Fifth
In
Amendment federal due process,
diminishing my constitutional protections this
court has lessened the value for all.
9. The substance of this case (which is contained
in the first amended complaint, references both
code and law), is about an unspecified code
violation, a municipal Special Master trial, an
excessive fine in perpetuity, and a town
ordinance which seeks to take all real and
personal property of its own accord.
10. At the municipal trial, in the Town of
Yankeetown, the Special Master found ‘at no
time including the Notice of Hearing did the
town notify the respondent of the code sections
violated, or give the respondent a reasonable
opportunity to correct these violations.
6

‘Consequently no determination can be made
as to whether or not such violations now exist’.
Proper notification is a cornerstone of due
process, and municipal courts which rule on
issues that pertain to state statutes are
prohibited by the Florida Constitution. Article
5 Section 1 states, ‘no other courts may be
established by the state, any political
subdivision, or any municipality’.
11. In oral argument transcribed in the First
Amended Complaint, the Special Master
states, ‘there will be no fine’. The $100 / day
fine that I have received was voted on by the
Yankeetown town council, thereby eliminating
an impartial referee, implementing a true
reversal of cantors paradise.
12. I claim constitutional protection under the
Eight Amendment for excessive fines and
violation of due process, under the Fourteenth
Amendment.
13. Yankeetown ordinance YT-65c passed in 2015
by the council, states “any order imposing fine
constitutes a lien, not only on the subject
property, but on all real and personal property
owned by a violator.” I claim this ordinance
constitutes a Bill of Attainder.
14. The after-the-fact permit that I applied for the
the direction of the Special Master’s Final
Administrative Order, was denied, and the
appeal that I filed with the town, was ignored.
I claim this as ex post facto law.

7

REASONS FOR GRANTING THE PETITION
A.
To support and defend our U.S. Constitution
and its individual rights under the 1st, 5th 8th and
14th Amendments.
B.
To protect the rights of citizens from self
appointed courts, excessive and undue fines.
C.
To establish the proper appeal process for
unspecified violations according to Florida Code and
Law.
D.
To ensure uniform access and constitutional
interpretation in all Federal and State Courts.
E.
To support and defend the Florida Constitution
from domestic threats including prohibition of
municipal courts which rule on issues that pertain to
state statutes (article 5 section 1), and prevent
prohibited special laws Article III section 11(6), Bills
of Attainder Article I section 10.
F.
Change of civil or criminal venue, article I
section 17, excessive punishments, and section 21,
access to courts.
CONCLUSION
Due process was denied under the 5th and 14th
Amendments.
In 1934, the United States Supreme Court held
that due process is violated, "if a practice or rule
offends some principle of justice so rooted in the
8

traditions and conscience of our people as to be ranked
as fundamental”. Snyder v. Massachusetts, 291 U.S.
97, 105 (1934).
As construed by the courts, it includes an
individual’s right to be adequately notified of charges
or proceedings, the opportunity to be heard at these
proceedings, and that the person or panel making the
final decision over the proceedings be impartial in
regards to the matter before them. Goldberg v. Kelly,
397 U.S, 254, 267 (1970).
To put it more simply, where an individual is
facing a deprivation of life, liberty, or property,
procedural due process mandates that he or she is
entitled to adequate notice, a hearing, and a neutral
judge.
In the middle of the 19th century, "due process
of law" was interpreted by the U.S. Supreme Court to
mean that, "it was not left to the legislative power to
enact any process which might be devised. The due
process article is a restraint on the legislative as well
as on the executive and judicial powers of the
government, and cannot be so construed as to leave
Congress free to make any process 'due process of law'
by its mere will.” Murray v. Hoboken Land, 58 U.S.
272 (1855).
I ask this court, in view of this evidence for a
summary reversal, a change of venue, and a remand
with jury trial. A change of venue would eliminate
local rules which abridge my First Amendment right.

9

A full hearing with injunctive relief specified in
my first amended complaint is warranted, when any
appointed quorum has the ability to deprive all real
and personal property from its citizens.
Since I had all my property rights taken away,
I refiled in state court. Ironically the defendants first
motion was to relocate the case to federal court, and I
have a change of venue pending, so these issues are
current.
Delegates to the original constitutional
convention were selected by committees of
correspondence, because they were deemed to have
sufficient cause to act.
My actions are dictated by mother necessity. I
seek no fame or fortune, just an affirmation that
individual liberties described in our constitution are
available to the common man or self advocate.
Specifically, free speech, equal access, due process
and protection from excessive fines.
This Petition for a Writ of Certiorari should be
granted.
Respectfully Submitted,

Adam P. McNiece, Petitioner
5 Palm Drive
Yankeetown, Florida 34498
adam.mcniece@gmail.com, 860-460-9636

10

